OFFICE OF INSPECTOR GENERAL 



AUDIT OF THE
MILLENNIUM CHALLENGE
CORPORATION’S FUNDING OF
ACTIVITIES IN MONGOLIA
AUDIT REPORT NO. M-000-12-001-P
MARCH 22, 2012

WASHINGTON, D.C.
Office of Inspector General



March 22, 2012

Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s report on the Audit of the Millennium
Challenge Corporation’s Funding of Activities in Mongolia. In finalizing the report, we
considered your written comments on our draft report and included those comments in their
entirety in Appendix II of this report.

The report contains four recommendations to strengthen the Millennium Challenge
Corporation’s policies and procedures. We consider that management decisions have been
reached on Recommendations 1, 2, and 4, and final action has been reached on
Recommendation 3.

I appreciate the cooperation and courtesy extended to my staff during this audit.

                                             Sincerely,

                                              /s/

                                             Mark Norman
                                             Acting Deputy Assistant Inspector General for Audit
                                             Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street NW
Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS 


Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


          MCC’s Procurement Policies May Not Be Consistent....................................................... 5 


          Number of Subcontractors Reported on the 

          Choir-Sainshand Road Project Was Inconsistent ............................................................. 5 


          MCC Property Rights Registration Activity 

          May Not Meet Its Goal ...................................................................................................... 6 


          Well Houses May Lack Proper Ventilation ........................................................................ 7 


Evaluation of Management Comments..................................................................................... 9 


Appendix I – Scope and Methodology .................................................................................... 10 


Appendix II – Management Comments ................................................................................... 12 

SUMMARY OF RESULTS 

On October 22, 2007, the Millennium Challenge Corporation (MCC) signed a 5-year,
$285 million compact with the Government of Mongolia aimed at reducing poverty and
promoting sustainable economic growth through investments in four projects. At the request of
the Government of Mongolia, one of the projects, a $188 million rail project, was later canceled
and two new projects were added through an amendment to the compact in January 2010. The
amended compact includes the following five projects:

1. 	A $28 million Property Rights Project to improve the land privatization and registration
    system, privatize and register approximately 75,000 land plots, and to lease approximately
    465 tracts of rangeland to groups of herders.

2. 	 A $39 million Health Project to address the high and growing incidence of noncommunicable
     diseases and injuries and ensure that Mongolians become healthier and more productive as
     they enter the marketplace.

3. 	 A $48 million Vocational Education Project to prepare more Mongolians to qualify for more
     demanding and financially rewarding market-oriented jobs.

4. 	 A $47 million Energy and Environment Project (added through the amendment) to increase
     the adoption of energy-efficient products and homes, and to support the development of
     renewable energy.

5. 	 An $80 million North-South Road Project (added through the amendment) to construct a
     176-kilometer road between the towns of Choir and Sainshand, to construct and rehabilitate
     bridges and a road near Ulaanbataar, and to provide technical assistance to the
     Government of Mongolia to help improve road maintenance.1

The Millennium Challenge Account-Mongolia (MCA-M) is the host-government entity charged
with implementing the terms of the compact. The compact entered into force on September 17,
2008, and will conclude in September 2013. As of June 30, 2011, MCA-M had committed
nearly $121 million for the Mongolia compact.

The objective of this audit was to determine whether the North-South Road Project and Property
Rights Project were on schedule to achieve their project activity goals.

North-South Road Project. The Office of Inspector General (OIG) found that the North-South
Road Project is behind schedule by at least 1 year and faces significant risks to completing and
achieving its project activity goals. MCC expected that road construction would be well under
way by the time of the OIG audit in September 2011. Instead, only a nominal amount of work
was done on the Choir-Sainshand road, and no work was done on the construction and
rehabilitation of bridges and a road near Ulaanbataar during the 2011 construction season.
MCA-M plans to focus on the third project activity—providing technical assistance to the
Government of Mongolia—after progress is made with the road construction activity.



1
    Of the compact’s total $285 million, $43 million is used primarily for compact administration.

                                                                                                     1
The North-South Road Project has been delayed because of difficulties with contractors and the
time required for the procurement process. For example, the contractor initially hired to build
the Choir-Sainshand road entered into bankruptcy in April 2010 and was terminated in May
2011 after 1 year on the job. MCA-M then hired three smaller road contractors to perform a
nominal amount of work during the summer of 2011 in an attempt to salvage some of the 2011
construction season. However, the contractors were inexperienced, and MCC expects that they
will finish only about 20 percent of the work planned. MCA-M plans to hold another
procurement to find new contractors to continue work on the Choir-Sainshand road project.

Another factor leading to a delay in the North-South Road Project is that the contractor originally
selected for the construction and rehabilitation of bridges and a road near Ulaanbataar failed to
provide a performance security as a financial guarantee for the work and therefore was unable
to proceed. Because the procurement process takes several months and the construction
season in Mongolia is limited generally to the summer, the 2011 construction season for this
activity was lost because of the failed procurement. MCA-M then divided this activity into two
segments and attempted to find new contractors. As of October 2011, however, MCA-M had
not found qualified contractors for the road portion of this activity. MCC officials said that the
road portion may be considered for elimination, and if eliminated, funding for it may be
transferred to the Choir-Sainshand road project activity.

The project activity delays have contributed to a projected budget shortfall of at least
$12 million. To help address the time constraints on the North-South Road Project, MCA-M
divided the procurements for the road construction activities into multiple lots so that contractors
could work concurrently. However, this approach increased costs, and the compact may not
have the funding needed to complete all project activities within the limited time remaining.

Although the North-South Road Project faces many challenges, MCC and MCA-M officials have
a plan for moving forward and will take actions based on the results of the procurement process.
As a result, OIG is not making recommendations on the overall management of the North-South
Road Project at this time.

However, the audit did find that:

	 MCC’s procurement policies may not be consistent (page 5). While MCC’s procurement
   guidelines require subcontracts to follow MCC’s fundamental procurement principles, MCC
   officials determined that a restriction against contracts to government-owned enterprises
   does not apply to subcontractors.

	 The number of subcontractors working on the Choir-Sainshand road project was not
   consistently reported to OIG (page 5). Although MCC’s procurement guidelines require
   MCAs to approve subcontracts worth more than $100,000, MCA-M may not have had
   accurate information regarding the number of subcontractors working on the Choir-
   Sainshand road project.

Property Rights Project. The Property Rights Project is behind schedule on all three project
activities and will not meet all of its goals. For example, improvements to the land privatization
and registration system were delayed because the Government of Mongolia was late in meeting
its obligations. MCA-M is now moving forward with this activity. In addition, as discussed on
page 6, MCC had intended to register 30,000 land plots by September 2011, but none were
registered by that time and MCC reduced the number of plots to be registered. Finally, MCC
delayed progress on the land-leasing activity in order to address concerns regarding

                                                                                                  2
nonparticipants who might be adversely affected by the project. The number of tracts to be
leased on this activity has been reduced from 465 to 399, as discussed below.

The number of tracts to be leased on the land-leasing activity was reduced for two reasons.
First, when concerns were raised during implementation about the eligibility of the tracts under
consideration, MCC and MCA-M stopped the project and conducted field verification tests to
verify that the eligible land tracts were not occupied by other herders. As a result of the field
verification tests, approximately 30 percent of the tracts were found ineligible and were dropped.
MCC originally planned to identify an excessive amount of eligible land tracts and hold a lottery
to select participants, but after the tracts were dropped there were no longer enough tracts to
hold a lottery. The number of eligible tracts remaining was just below the total planned amount.

The second reason the number of tracts was reduced was that four local governments with
jurisdiction over 50 eligible tracts withdrew from the program before the leases were to be
signed. According to MCC, the withdrawals occurred for a variety of reasons, such as concerns
that the leases would restrict the local governments’ abilities to allocate land to other
Mongolians. Also, because of the delay in completing the leasing process, the districts made
alternative plans for some of the land, which made it unavailable for the project. Since the
number of tracts was reduced, the activity is now expected to reach 14 percent fewer groups of
herders than originally intended.

Although the land-leasing activity is behind schedule, MCC and MCA-M have taken steps and
developed a plan to complete it before the compact ends. As a result, OIG is not making
recommendations on the management of the land-leasing activity at this time.

However, the audit did find that:

	 Another component of the Property Rights Project, the privatization and registration activity,
   may not meet its goal (page 6). MCC changed the focus of the registration activity by
   adding the verification of current land plot registrations. Also, MCC reduced the number of
   new plots to be registered. These changes were necessary because, when planning the
   activity, MCC relied on data provided by another donor that was later found to be inaccurate.

	 Well houses constructed as part of the land-leasing activity may lack proper ventilation
   (page 7). Four of six well houses OIG visited did not contain appropriate ventilation for
   gasoline-powered generators.2

To address these concerns, the report recommends that MCC’s Vice President, Department of
Compact Operations:

1. 	 Review and clarify the Material Interim Amendment to the Program Procurement Guidelines
     that addresses government-owned enterprises and its applicability to subcontractors
     (page 5).

2. 	Review and document MCA-M’s procedures for identifying, reviewing, and approving all
    subcontracts worth more than $100,000, to confirm that they are in accordance with the
    Program Procurement Guidelines (page 6).


2
 One of the wells used electric power rather than a gasoline-powered generator, and one generator was
not in place because the well was not operating.

                                                                                                   3
3. 	Develop a written plan for assessing the quality of data obtained from information
    management systems that is used during the due diligence phase of new compact
    development (page 6).

4. 	 Direct MCA-M to inspect all well houses to confirm that the generator exhaust fumes are
     properly vented and that no safety hazard exists, and communicate the ventilation concern
     to the Government of Mongolia in writing (page 8).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. Appendix II presents MCC’s comments. Our evaluation of management
comments is on page 9.




                                                                                            4
AUDIT FINDINGS 

MCC’s Procurement Policies
May Not be Consistent
MCC’s Program Procurement Guidelines3 state that:

          Every contract or subcontract for goods, works, consultant, or non-consultant
          services with any party that receives MCC funding shall require the contracting
          party to follow the fundamental procurement principles promoting transparency,
          openness, competition and fairness to the maximum extent possible. [emphasis
          added]

The guidelines also state that government-owned enterprises are not eligible to compete for
MCC-funded contracts and may not be party to any MCC-funded contracts. MCC amended the
Program Procurement Guidelines to institute this restriction against government-owned
enterprises to ensure a level playing field for commercial firms from all countries.

One of the Choir-Sainshand road contractors hired a subcontractor that had not been evaluated
to establish its ownership. The subcontractor had not been evaluated because MCC determined
that the restriction against government-owned enterprises did not apply to subcontractors. This
determination, however, does not seem consistent with the requirement that subcontracts follow
MCC’s fundamental procurement principles.          Without consistent implementation of the
procurement guidelines, MCAs could be using subcontractors that are government-owned
enterprises and MCC may not be ensuring a level playing field for commercial firms from all
countries. To address this concern, this audit makes the following recommendation.

      Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
      President, Department of Compact Operations review and clarify the Material Interim
      Amendment to the Program Procurement Guidelines that addresses government-owned
      enterprises and its applicability to subcontractors.

Number of Subcontractors
Reported on the Choir-Sainshand
Road Project Was Inconsistent
MCC’s Program Procurement Guidelines state that contractors must obtain the MCA’s written
approval for any subcontract worth more than $100,000.

OIG was unable to determine how many subcontracts worth more than $100,000 were awarded
on the Choir-Sainshand road project. MCA-M officials told OIG that only one contractor on the
Choir-Sainshand road project had requested and received approval for a $2 million subcontract.
However, the road construction contractors told OIG that as many as three other subcontractors
also were working on the project. The highway project manager—a contractor hired to help
manage the North-South Road Project—was uncertain about exactly how many subcontractors
were working on the Choir-Sainshand project. Furthermore, the contracts between the road

3
    Program Procurement Guidelines, Part 6, “Subcontracting,” October 23, 2009.

                                                                                             5
construction contractors and MCA-M stated that approval of subcontracts was required for
amounts worth more than $300,000, rather than the $100,000 stated in the Program
Procurement Guidelines.

The procedures established by MCA-M did not ensure that subcontracts worth more than
$100,000 were approved. As a result, MCA-M may not have had accurate information
regarding the number of subcontractors working on the Choir-Sainshand road project. Without
accurate information and the appropriate approval of subcontractors, as required by the
Program Procurement Guidelines, MCC funds could be used to hire unqualified or banned
subcontractors, thereby jeopardizing project completion. To address this concern, this audit
makes the following recommendation.

   Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations review and document Millennium
   Challenge Account-Mongolia’s procedures for identifying, reviewing, and approving all
   subcontracts in excess of $100,000 to confirm that they are in accordance with the
   Program Procurement Guidelines.

MCC Property Rights Registration
Activity May Not Meet Its Goal
According to the compact, the Property Rights Project will privatize and register approximately
75,000 land plots of low- and middle-income households with the Government of Mongolia.
This activity is behind schedule and may not meet its goal. No land plots had been registered
by September 2011, even though the project had a target of 30,000. Originally, MCC intended
to register 75,000 new land registrants, but MCC reduced this number to approximately 53,000
after discovering that the data on the total number of unregistered plots was inaccurate. When
MCC reduced the number of new land plots, it also broadened the focus of the registration
activity to include verifying the accuracy of those already registered.

The project activity will register fewer new land plots because MCC relied on unverified data
during the due diligence process. The data came from an information management system
created by another donor. MCC officials said they relied on the data because the donor was a
major foreign organization that had been working in Mongolia for many years. However, during
project implementation, MCC found that the data were inaccurate, and had to change the focus
of the project.

Although the total number of beneficiaries may increase because of the verification activity, and
verifying the accuracy of existing registrations is an important objective, MCC nonetheless
changed the focus of the registration activity. As a result, approximately 22,000 residents may
no longer obtain assistance in registering their land plots. To address this concern, this audit
makes the following recommendation.

   Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations develop a written plan for assessing the
   quality of data obtained from information management systems that is used during the
   due diligence phase of new compact development.




                                                                                               6
Well Houses May Lack
Proper Ventilation
MCC’s authorizing legislation prohibits assistance to any project “likely to cause a significant
environmental, health, or safety hazard.”4 As part of the land-leasing activity, groups of herders
that sign leases will have wells installed on the land. The well house design does not include a
specific ventilation system for fumes from the gasoline generators installed inside the well
houses that are used to power the wells. Instead, the building contracts require that “wall
penetration will be made in a suitable location for an exhaust vent for the portable generator.”5
In other words, a hole will be made in the well house’s wall.

In four of six well houses that OIG visited, the wall penetration for an exhaust vent did not align
with the generator’s exhaust pipe; an example of this is shown in the photograph below.




                               The blue pen protrudes from the generator’s
                               exhaust pipe to illustrate that the pipe does
                               not align with the wall penetration on the
                               left. (OIG photograph, September 9, 2011)




Well houses, like the one below, are small, enclosed structures in which herders will spend time
operating the gasoline generators.




4
    The Millennium Challenge Act of 2003, Section 605 (e), point 3.
5
    MCA-M contract for well construction and rehabilitation work.

                                                                                                 7
                           OIG visited well houses like this one.
                           (OIG photograph, September 9, 2011)

MCC was aware of the potential hazard of operating a gasoline engine in an enclosed space,
but said that MCA-M was reluctant to add more technical specifications than those included in
the contracts because the exact means of venting exhaust would vary with the model of
generator used. However, because additional technical specifications are not included, some
well houses may not have proper ventilation. The herders operating the wells may be in the
well houses for a few hours; if the houses are not properly ventilated carbon monoxide
poisoning could occur, causing serious illness or even death. The design of the wells and well
houses has been shared with the Government of Mongolia for use elsewhere. To address this
concern, this audit makes the following recommendation.

   Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations direct the Millennium Challenge Account-
   Mongolia to inspect all well houses to confirm that the generator exhaust fumes are
   properly vented and that no safety hazard exists, and communicate the ventilation
   concern to the Government of Mongolia in writing.




                                                                                            8
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the draft report that are included in their entirety in
Appendix II of this report. MCC agreed with all four recommendations. Management decisions
have been reached on Recommendations 1, 2, and 4, and final action has been reached on
Recommendation 3.

MCC agreed with Recommendation 1, to review and clarify the Material Interim Amendment to
the Program Procurement Guidelines that addresses government-owned enterprises and its
applicability to subcontractors. MCC will conduct an internal review of the amendment and its
applicability to subcontractors and expects to take final action within 9 months. OIG considers
that a management decision has been reached on this recommendation. Final action will occur
when MCC completes its internal review.

MCC agreed with Recommendation 2, to review and document MCA-M’s procedures for
identifying, reviewing, and approving all subcontracts worth more than $100,000 to confirm that
they are in accordance with the Program Procurement Guidelines. MCC will require MCA-M to
develop a written procedure for this process within 60 days. OIG considers that a management
decision has been reached on this recommendation. Final action will occur when MCC
completes its review of MCA-M’s procedures.

MCC agreed with Recommendation 3, to develop a written plan for assessing the quality of data
obtained from information management systems that is used during due diligence for new
compacts. MCC updated its Compact Development Guidance in January 2012 to strengthen
the requirements for the technical review of projects before signing compacts. MCC said that
the guidance applies to all data gathered during due diligence, whether from information
management systems or other sources. While OIG supports MCC’s efforts to strengthen the
due diligence process, MCC’s continued vigilance is necessary to ensure that data obtained
from information management systems is properly assessed. However, based on MCC’s
updated Compact Development Guidance, final action has been reached on this
recommendation.

MCC agreed with Recommendation 4, to inspect all well houses to confirm that the generator
exhaust fumes are properly vented and that no safety hazard exists and to communicate the
ventilation concern to the Government of Mongolia in writing. MCC has developed a plan to
inspect the well houses, take corrective action when necessary, and communicate the concern
to the Government of Mongolia in writing. OIG considers that a management decision has been
reached on this recommendation. Final action will occur when MCC has implemented its plan.




                                                                                             9
                                                                                       Appendix I



SCOPE AND METHODOLOGY 

Scope
OIG conducted this audit of MCC’s funding of activities in Mongolia in accordance with
Generally Accepted Government Auditing Standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objectives. We believe that the evidence
obtained provides that reasonable basis.

MCC signed a compact with the Government of Mongolia for approximately $285 million that
entered into force in September 2008. This audit focused on the nearly $80 million North-South
Road Project and the nearly $28 million Property Rights Project, both of which have
encountered significant difficulties and represent almost 40 percent of the total compact funding.

We conducted our fieldwork from June 16 to November 1, 2011, at MCC headquarters in
Washington, D.C., with a visit to MCA-M in Ulaanbaatar from August 29 to September 16, 2011.
In Mongolia, we conducted site visits to the North-South Road and Property Rights Projects.

To answer the audit objective, we met with MCC officials to gain an understanding of compact
activities. We conducted a site visit to Mongolia to observe ongoing activities and interview
MCA-M staff, contractors, and program beneficiaries. We met with subject matter experts and
analyzed reports and documents to identify concerns. During the property rights site visit, we
interviewed both project officials and beneficiaries.

We examined the internal control environment by identifying and assessing the relevant
controls, including supporting documentation for the due diligence process and supervisory
controls on the road construction project. We also tested controls in place for effectively
awarding, managing, and monitoring selected health and education grants and for awarding
property leases.

Methodology
The audit team met with MCC staff in Mongolia and in Washington, D.C. In addition, we
conducted a statistical sample, with a 90 percent confidence level, of completed health and
education grants and signed peri-urban leases to test internal controls.

To answer the audit objective, we established audit steps to determine whether MCC and MCA-M
were on schedule to achieve the project activity goals. Specifically, we performed the following
activities:

	 Interviewed MCC and MCA-M officials to gain an understanding of the project activities.

	 Interviewed contractors, Mongolian government officials, and other donors to gain their
   perspectives on the risks facing the projects.

	 Reviewed documents supporting the project activities, including the compact, due diligence

                                                                                               10
                                                                                      Appendix I


   documents, the monitoring and evaluation plan, contracts, progress reports, and
   environmental management plans.

	 Conducted a statistical sample to select a percentage of health and education grants for
   testing to assess whether the internal controls in place were effective.

	 Conducted a statistical sample to select a percentage of property rights leases for testing to
   assess whether the internal controls in place were effective.

	 Reviewed documents supporting the procurement process.




                                                                                              11
                                                                                    Appendix II



MANAGEMENT COMMENTS



DATE:	        February 24, 2012

TO:	          Mark Norman, Acting Assistant Inspector General
              Office of Inspector General
              U.S. Agency for International Development

FROM:	        Jonathan Brooks, Acting Deputy Vice President (Managing Director) /s/
              Europe, Asia Pacific, and Latin America
              Department of Compact Operations
              Millennium Challenge Corporation

Dear Mr. Norman:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the
Office of Inspector General’s (OIG) draft report entitled “Audit of the Millennium Challenge
Corporation’s Funding of Activities in Mongolia”, dated January 5, 2012.

MCC’s specific responses to the four recommendations in the draft report are detailed below.

Recommendation 1: We recommend that the Millennium Challenge Corporation’s Vice
President for the Department of Compact Operations review and clarify the Material
Interim Amendment to the Program Procurement Guidelines that addresses government-
owned enterprises and its applicability to subcontractors.

MCC Response: MCC agrees with the recommendation and will conduct an internal review to
clarify the Material Interim Amendment to the Program Procurement Guidelines and its
applicability to subcontractors. MCC considers this its management decision and will take final
action within nine months.


Recommendation 2: We recommend that the Millennium Challenge Corporation’s Vice
President for the Department of Compact Operations review and document Millennium
Challenge Account-Mongolia’s procedures for identifying, reviewing, and approving all
subcontracts in excess of $100,000 to confirm that they are in accordance with the
Program Procurement Guidelines.

MCC Response: MCC agrees with the recommendation, and will require MCA-Mongolia to
develop within 60 days a written procedure for identifying, reviewing, and approving all
subcontracts in excess of $100,000 to confirm that such subcontracts are in accordance with

                                                                                               12 

                                                                                      Appendix II


the Program Procurement Guidelines. MCC will consider its review of MCA-Mongolia’s
procedures to ensure that they are compliant with the Program Procurement Guidelines as its
management decision and final action.


Recommendation 3: We recommend that the Millennium Challenge Corporation’s Vice
President for the Department of Compact Operations develop a written plan for
assessing the quality of data obtained from information management systems that is
used during due diligence for new compacts.

MCC Response: MCC agrees with the recommendation. In 2008, after the Mongolia Compact
was developed, MCC conducted a comprehensive review of compact development and
determined that its due diligence of proposed projects required strengthening. On the basis of
that review, MCC issued new Compact Development Guidelines, including strengthened
requirements for the technical review of projects in advance of compact signing. In 2011, MCC
conducted a subsequent review of compact development to improve the time and cost-
effectiveness of the compact development process and to strengthen MCC’s guidelines in order
to produce high-quality compact proposals. As a result of the 2011 review, MCC’s due diligence
guidelines for all potential project areas were updated and strengthened, and are now in force
and posted on MCC’s public website. The updated Millennium Challenge Corporation Compact
Development Guidance, revised January 2012, constitutes MCC’s written plan for assessing the
quality of data used during due diligence for new compact proposal, and as such MCC
considers that final action has been taken to address this recommendation.


Recommendation 4: We recommend that the Millennium Challenge Corporation’s Vice
President for the Department of Compact Operations direct the Millennium Challenge
Account-Mongolia to inspect all well houses to confirm that the generator exhaust fumes
are properly vented and that no safety hazard exists and communicate the ventilation
concern to the Government of Mongolia in writing.

MCC Response: MCC agrees with the recommendation and will: (i) commission an
independent specialist to review the well house ventilation design and identify improvements; (ii)
communicate the concern to the Government of Mongolia in writing; (iii) direct MCA-Mongolia to
inspect all well houses and take any corrective action on those houses with ventilation
problems; and (iv) direct MCA-Mongolia to construct future well houses with proper ventilation.
Items (i) and (ii) will be completed in March 2012, Item (iii) will be completed in June 2012; and
Item (iv) will be an ongoing effort in 2012 and 2013.




                                                                                               13
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
